BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Respondents' Brief in Opposition in 20-639,
Calvary Chapel Dayton Valley v. Steve Sisolak,
Governor of Nevada, et al., was sent via Next Day
Service to the U.S. Supreme Court, Next Day and email service to the following parties listed below, this
19th day of January, 2021:
David Andrew Cortman
Alliance Defending Freedom
1000 Hurricane Shoals Road, NE
Suite D-1100
Lawrenceville, GA 30043
(703) 390-77 4
dcortman@adflegal.org

Counsel for Petitioner
Aaron D. Ford
Attorney General of Nevada
Heidi Parry Stern*
Solicitor General
Craig Newby
Deputy Solicitor General
Jeffrey M. Conner
Deputy Solicitor General
100 North Carson Street
Carson City, NV 89701
(775) 684-1100
HStern@ag.nv.gov
* Counsel of Record

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

I

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Brian Hardy
Kathleen Wilde
Marquis Aurbach Coffing
10001 Park Run Drive
Las Vegas, NV 89145
bhardy@maclaw.com
kwilde@maclaw.com

Counsel for Respondent
Frank Hunewill

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on January 19, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ /'t( J&dl/
Jrk t] .

Notary Public

b~c.~/
\.J

1

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commissk,n Expires
February 14, 2023

